<html>
<title> - [H.A.S.C. No. 114-4] WOUNDED WARRIOR PROGRAM UPDATE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                                 

                          [H.A.S.C. No. 114-4]

                     WOUNDED WARRIOR PROGRAM UPDATE

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 3, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                __________
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
94-091                       WASHINGTON : 2015                         
  
________________________________________________________________________________________
  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c0d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>  
   
  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    JOSEPH J. HECK, Nevada, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOHN KLINE, Minnesota                ROBERT A. BRADY, Pennsylvania
MIKE COFFMAN, Colorado               NIKI TSONGAS, Massachusetts
THOMAS MacARTHUR, New Jersey, Vice   JACKIE SPEIER, California
    Chair                            TIMOTHY J. WALZ, Minnesota
ELISE M. STEFANIK, New York          BETO O'ROURKE, Texas
PAUL COOK, California
STEPHEN KNIGHT, California
               Jeanette James, Professional Staff Member
                Craig Greene, Professional Staff Member
                           Colin Bosse, Clerk
                            C O N T E N T S

                              ----------                              

                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Heck, Hon. Joseph J., a Representative from Nevada, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Breining, CAPT Brent M., USN, Director, Navy Wounded Warrior-Safe 
  Harbor, United States Navy.....................................     4
Doherty, Brig Gen Patrick J., USAF, Director, Air Force Services, 
  United States Air Force........................................     6
Rodriguez, James D., Deputy Assistant Secretary of Defense, 
  Warrior Care, Department of Defense............................     3
Toner, COL Chris R., USA, Commander, Warrior Transition Command, 
  United States Army.............................................     3
Williamson, Paul D., Command Advisor, Wounded Warrior Regiment, 
  United States Marine Corps.....................................     6

                                APPENDIX

Prepared Statements:

    Breining, CAPT Brent M.......................................    56
    Doherty, Brig Gen Patrick J..................................    69
    Heck, Hon. Joseph J..........................................    31
    Rodriguez, James D...........................................    32
    Toner, COL Chris R...........................................    39
    Williamson, Paul D...........................................    79

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................    90
    Mrs. Davis...................................................    89
    Mr. Jones....................................................    91

Questions Submitted by Members Post Hearing:

    Mr. Jones....................................................    95
                     WOUNDED WARRIOR PROGRAM UPDATE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                         Washington, DC, Tuesday, February 3, 2015.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
Room 2212, Rayburn House Office Building, Hon. Joseph J. Heck 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOSEPH J. HECK, A REPRESENTATIVE FROM 
      NEVADA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Dr. Heck. Go ahead and call the Military Personnel 
Subcommittee meeting to order.
    I would like to welcome everyone to the first hearing of 
the Military Personnel Subcommittee for the 114th Congress. I 
especially want to welcome the new members of the subcommittee 
and look forward to working with each of you during the coming 
year.
    I am very pleased that Congresswoman Susan Davis from 
California will continue to be the subcommittee ranking member. 
Over the past 4 years, I have valued her years of experience on 
this subcommittee as chairwoman and as ranking member. I look 
forward to working with you as well as we shape the work of the 
subcommittee over the next year.
    The past several days have been very busy with the release 
of the Military Compensation and Retirement Modernization 
Commission's report and the President's budget for fiscal year 
2016. I know that the information in both of these documents 
are at the forefront of everyone's mind, and I want to assure 
everyone that the Military Personnel Subcommittee will have 
several opportunities to thoroughly review and discuss them in 
the coming months.
    But today we meet to continue the subcommittee's effort to 
improve the care of injured and wounded troops as they recover 
and transition either back to duty or to civilian life. The 
Department of Defense [DOD] and the military services have had 
many years to develop the policies and programs to assist 
wounded, ill, and injured warriors and their families through 
the recovery process. I recognize that this was and continues 
to be a tremendous effort by very dedicated and professional 
individuals, both military and civilian, that crosses all 
military communities.
    However, it has not been without its fits and starts and 
has not been without problems. Our purpose today is to learn 
the current state of the Wounded Warrior programs. I am 
interested to know whether the programs still serve the needs 
of the wounded, ill, and injured service members and their 
families. Are they viewed by DOD and the services as enduring 
programs, or are there plans to reevaluate the need for such 
programs in their current state as the mission in Afghanistan 
winds down and those deployments taper off.
    I am interested in hearing the witnesses' views on these 
questions. Before I introduce our panel, let me offer 
Congresswoman Davis an opportunity to make opening remarks.
    [The prepared statement of Dr. Heck can be found in the 
Appendix on page 31.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman, and I certainly look 
forward to your very dedicated leadership. Glad you are here.
    I also wanted to welcome Mr. Rodriguez, Brigadier General 
Doherty, Colonel Toner, Captain Breining, if I have it right, 
and Mr. Williamson.
    After more than 13 years of combat, the military has 
significantly reduced the number of service members in direct 
combat, but we still have many military members in harm's way 
with a real risk to being wounded.
    The military services and Congress have provided ample 
needed resources to help organize and care for our wounded 
military and their families as they either transition out of 
the military or become healthy enough to continue to serve. And 
as the population of the services of Wounded Warrior programs 
has been reduced, I am concerned that we will lose focus on 
providing care for those who truly need it, especially as 
fiscal pressures continue.
    So I look forward to hearing from our witnesses today on 
whether the policies that were instituted in 2009 are still 
applicable today, and what do you all think we should do to 
ensure the Wounded Warrior programs assist the intended 
personnel.
    Thank you very much and thank you for your leadership as 
well.
    Dr. Heck. Thank you, Mrs. Davis.
    We are joined today by an outstanding panel. We would like 
to give each witness the opportunity to present his or her 
testimony and each member an opportunity to question the 
witnesses. I would respectfully remind the witnesses that you 
should summarize to the greatest extent possible the high 
points of your written testimony in 5 minutes.
    I assure you that your written comments and statements will 
be made part of the hearing record. So let me welcome our 
panel. We have Mr. James Rodriguez, Deputy Assistant Secretary 
of Defense for Warrior Care Policy; Brigadier General Patrick 
Doherty, Director of Air Force Services, United States Air 
Force; Colonel Chris Toner, Commander, Warrior Transition 
Command of the United States Army; Captain Brent Breining, 
Director, Navy Wounded Warrior-Safe Harbor, the United States 
Navy; and Paul Williamson, Command Advisor, Wounded Warrior 
Regiment of the United States Marine Corps.
    Secretary Rodriguez, the time is yours.

STATEMENT OF JAMES D. RODRIGUEZ, DEPUTY ASSISTANT SECRETARY OF 
          DEFENSE, WARRIOR CARE, DEPARTMENT OF DEFENSE

    Mr. Rodriguez. Chairman Heck, Ranking Member Davis, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the 
Department of Defense's Wounded Warrior programs.
    One of the Department's highest priorities is ensuring the 
Nation's wounded, ill, and injured service members, their 
families, and caregivers receive the support they need for 
recovery, rehabilitation, and reintegration.
    Today, our major combat operations are declining, but our 
national security challenges and responsibilities endure. 
Therefore, we are resolute in assuring all the needs of our 
wounded warriors are met and they have the best available care 
and administrative management while being treated with dignity 
and respect from point of injury or illness to return to duty 
or transition from service. The Office of Warrior Care Policy 
provides concise policy oversight that allows the services to 
deliver consistent high quality care and support for recovering 
service members.
    We are conducting site assistance visits to assist the 
Wounded Warrior programs with Department of Defense policy 
compliance for recovery care at the installation level, and we 
have established a quality assurance program to standardize all 
services' disability evaluation requirements. Additionally, we 
provide nonmedical programs that support service member 
engagement in adaptive sports and activities, professional 
skill building, internships, and employment preparation to 
assist in their recovery and transition process.
    DOD has also developed information technology systems to 
streamline case management, established the caregiver support 
initiative to provide peer-to-peer forms for caregivers, and 
formed the interagency care coordination committee to update 
existing DOD-VA [Department of Veterans Affairs] processes to 
deliver benefits and services in a more accurate and timely 
manner.
    Even as our Nation reduces combat operations, our wounded, 
ill, and injured service members will continue to exist, and we 
must ensure our commitment to these individuals is not 
compromised. The American public and our leaders require it, 
and our service members and their families deserve the best 
services and support we can provide.
    Thank you for your support of the brave men and women who 
serve our Nation and your dedication to ensuring the services 
have the most efficient systems in place to care for wounded, 
ill, or injured and recovering service members. I look forward 
to your questions.
    [The prepared statement of Mr. Rodriguez can be found in 
the Appendix on page 32.]
    Dr. Heck. Thank you, Mr. Rodriguez.
    Colonel Toner.

   STATEMENT OF COL CHRIS R. TONER, USA, COMMANDER, WARRIOR 
             TRANSITION COMMAND, UNITED STATES ARMY

    Colonel Toner. Chairman Heck, Ranking Member Davis, and 
distinguished members of this committee, thank you for the 
opportunity to appear before you today to discuss the Army's 
Warrior Care and Transition program and to inform you of Army 
initiatives to address our wounded, ill, and injured soldiers 
and their families.
    Since their inception in June 2007, Warrior Transition 
Units [WTUs] have helped over 65,000 soldiers to heal and 
transition. Today, the Warrior Care and Transition program 
consists of 25 Warrior Transition Units supported by military 
and civilian cadre on installations throughout the United 
States and in Germany.
    Within the WTUs, soldiers receive personalized support from 
a triad of care. This includes a nurse case manager, a squad 
leader, and a primary care manager. This triad of care 
coordinates clinical and nonclinical issues to successfully 
transition the soldier and their families either back to the 
force or onward towards successful civilian lives.
    With the support of our committed and dedicated cadre, 
clinicians, and staff, our soldiers and families are assisted 
to take an in-depth and realistic look at where they are today 
and where they want to go along the road to recovery. This 
process is referred to as the comprehensive transition plan or 
CTP. The CTP is the overarching methodology to support a 
soldier's rehabilitation and ultimately reintegration back to 
the force or to the community as a productive veteran.
    The CTP is developed by the soldier for the soldier and is 
a future-oriented action plan to establish goals and map a 
soldier's transition plan towards self-reliance and 
independence. The soldier owns their CTP, and it empowers them 
to take charge of their own transition with the support of 
their family, cadre, clinicians, and specialized staff members.
    The Warrior Care and Transition program remains a highly 
effective program, and there are many success stories. Though 
the Warrior Care and Transition program has seen fewer wounded 
and more ill and injured soldiers, the WTU population remains 
complex, and the need for the Army to continue to resource and 
provide centralized oversight, guidance, and advocacy for this 
population will remain an enduring requirement.
    We have come a long way since the days of the medical 
holding company and long wait times for our injured soldiers. 
We will not return to that setting. Warrior care remains an 
Army priority and our sacred obligation.
    Again, thank you for the opportunity to appear before you 
today to discuss the Army's enduring commitment to the care of 
our wounded, ill, and injured soldiers and their families, and 
I look forward to your questions.
    [The prepared statement of Colonel Toner can be found in 
the Appendix on page 39.]
    Dr. Heck. Captain.

   STATEMENT OF CAPT BRENT M. BREINING, USN, DIRECTOR, NAVY 
        WOUNDED WARRIOR-SAFE HARBOR, UNITED STATES NAVY

    Captain Breining. Chairman Heck, Ranking Member Davis, 
distinguished members of the subcommittee. Thank you for the 
opportunity to testify before you today.
    I am Captain Brent Breining, Director of Navy Wounded 
Warrior-Safe Harbor, the nonmedical recovery care program for 
the Navy and Coast Guard. Since its establishment in 2005, Navy 
Safe Harbor has strived to provide the very best in nonmedical 
care for our seriously wounded, ill, and injured sailors and 
Coast Guardsmen, their families, and caregivers.
    Nine years later, Navy Safe Harbor enrollments have grown 
more than tenfold. A staff of nonmedical care managers and 
recovery care coordinators are located at military treatment 
facilities and Department of Veterans Affairs Polytrauma 
Rehabilitation Centers across the Nation.
    As of January 1, 2015, Navy Safe Harbor supported 3,283 
service members. As you may know, enrollment is extended to 
Active Duty and Reserve sailors and Coast Guardsmen with 
service-connected serious injury sustained while in the line of 
duty, including combat wounds, shipboard and shoreside training 
accidents, liberty accidents, and motorcycle vehicular 
accidents.
    Sailors and Coast Guardsmen diagnosed with a serious 
illness such as cancer, brain disease, stroke, or post-
traumatic stress are also eligible for enrollment. Only 19 
percent of Navy Safe Harbor enrollees are combat wounded. The 
vast majority are enrolled as a result of noncombat conditions.
    Because of the size of its population and relatively lower 
incidents of combat exposure, the Navy has employed a 
decentralized program for providing Wounded Warrior support. 
With the most service and Coast Guardsmen remaining attached to 
their current commands, Navy Safe Harbor support includes, but 
is not limited to, comprehensive recovery plan development, 
addressing pay and personnel issues, connecting family members 
and caregivers with available support resources, providing 
adaptive sports and recreational opportunities, and linking 
enrollees to education and job training benefits.
    Navy Safe Harbor has experienced continuous program growth 
since its inception, increasing by 19 percent in fiscal year 
2013 and 34 percent in fiscal year 2014. This growth is a 
result of increased awareness across the fleet due to an 
effective outreach and marketing campaign as well as an 
observed change in attitude of Navy and Coast Guard service 
members willing to overcome the stigma of seeking help.
    The program will likely continue to grow commensurate with 
the average rate of incidents of serious illness and injury 
across the fleet. The Navy Safe Harbor program addresses an 
enduring need, and must remain capable of responding when or if 
the Nation engages in a future conflict.
    I thank you again for holding this hearing and continuing 
to shed light on these important issues.
    I look forward to answering your questions.
    [The prepared statement of Captain Breining can be found in 
the Appendix on page 56.]
    Dr. Heck. General Doherty.

 STATEMENT OF BRIG GEN PATRICK J. DOHERTY, USAF, DIRECTOR, AIR 
            FORCE SERVICES, UNITED STATES AIR FORCE

    General Doherty. Good afternoon, Mr. Chairman, members of 
the committee.
    It is an honor and a privilege to be speaking with you this 
afternoon about the incredible men and women of the United 
States Air Force who are recovering from combat wounds, serious 
injuries, and debilitating and life-threatening illnesses, and 
the focused efforts of the Air Force Wounded Warrior program.
    At the start of 2015, we have 4,165 airmen enrolled in our 
Wounded Warrior program. The goal of our program is to assist 
our airmen and their caregivers through recovery and 
rehabilitation, helping them reach the best level of self-
sufficiency they can attain, and always being available in the 
event they are in need of assistance anytime in the future.
    Our program is designed to help our airmen face devastating 
situations and overcome adversity they may encounter. We hope 
to prepare them to return to duty if their situation allows or 
prepare them for a successful life of purpose out of uniform. 
Our success is counted not by numbers, but by the ability of 
our airmen to realize that an abundant life is ahead of them, 
and to see them set their focus on each day ahead, and succeed 
in taking that first step to recovery. But through it all we 
realize, because each person is different, we will face 
situations with them and their families we may not have seen 
before.
    So we are always seeking and implementing improvements to 
the continuum of care. We have developed our program to be 
flexible and adaptable to adjust our program to meet the needs 
of our wounded, ill, and injured airmen. We are proud of the 
airmen and the efforts of our professionals that care for them. 
The Air Force is totally committed to ensuring our Nation's 
sons and daughters who voluntarily raise their right hands to 
defend this great Nation, and specifically our wounded ill and 
injured, are cared for with the utmost compassion, skill, and 
dedication. That is our sacred trust, and that is what we will 
always keep as one of our top priorities.
    Thank you for your keen insights and endless support for 
our airmen, and in particular, our wounded warriors, ill and 
injured.
    I look forward to your questions.
    [The statement of General Doherty can be found in the 
Appendix on page 69.]
    Dr. Heck. Okay. Mr. Williamson.

   STATEMENT OF PAUL D. WILLIAMSON, COMMAND ADVISOR, WOUNDED 
          WARRIOR REGIMENT, UNITED STATES MARINE CORPS

    Mr. Williamson. Thank you, Chairman Heck, Ranking Member 
Davis, and distinguished members of the subcommittee.
    It is my privilege to appear before you today to discuss 
the service and support provided to our Marine Corps' wounded, 
ill, and injured Marines and their families through the Wounded 
Warrior Regiment. I have served in the Department of the Navy 
for more than 45 years. In that time, many positive changes 
have been made in how we care for our service men and women and 
their families, especially our wounded warriors.
    I can report to you today that the quality of care provided 
to your Marines has never been better. The best recovery care 
for complex cases requires a coordinated team approach. In the 
Marine Corps, we find success by placing warrior care under the 
leadership of a commander who has the responsibility, 
authority, and accountability for the health and welfare of 
those in his command.
    Our common objectives in warrior care have enhanced the 
partnership of the Marine Corps, Navy Medicine, the Department 
of Veterans Affairs, Department of Defense, and other services 
in ways that had not existed in the past. We are united by a 
common goal to ensure comprehensive recovery care for our 
Marines from the onset of their illness or injury through all 
phases of recovery and transition.
    Warrior care is not a process, but rather an individual 
relationship that exists between the recovering Marine and the 
family and the recovery care team. To ensure that we remain 
responsive to their needs, the Marine Corps seeks to be 
informed by the voice of our wounded warrior and their family. 
Annual care coordination surveys, townhall meetings, focus 
group, and social media feedback provide valuable input, which 
has resulted in additional capabilities and refinements of 
existing ones.
    As we focus on our current drawdown, fiscal pressures, and 
other important issues, one wonders about the future of warrior 
care. Our Commandant's 2015 planning guidance addresses the 
matter very clearly and succinctly. Our commitment to our 
wounded Marines and their families is unwavering.
    I look forward to answering your questions today, and I 
thank you for bringing us forward to address you.
    [The prepared statement of Mr. Williamson can be found in 
the Appendix on page 79.]
    Dr. Heck. Thank you.
    I would like to thank you all for your testimony. We will 
now begin with a 5-minute round of questioning by the members, 
and I will start off.
    Secretary Rodriguez, given that each military service has a 
unique program to provide support to recovering service members 
and their families, how does DOD ensure that the service 
programs are meeting the needs of the wounded warrior? So what 
is DOD's role when problems or deficiencies are identified in a 
service Wounded Warrior program?
    Mr. Rodriguez. Mr. Chairman, thank you for that question, 
and I assure you that DOD takes our role very seriously, and we 
have policy oversight of the programs that are being executed 
by all of the services.
    One way we do that is by conducting site assist visits 
within each of the services. In 2014, we conducted 27 site 
assistance visits, that again with each one of the services. 
And during the site assist visits, we reviewed the service's 
policies on care, transition--the transition programs as well 
as their care management as well. We wanted to ensure that they 
have a process in place that meets all the standards required 
as set forth in the policy.
    Dr. Heck. So DOD has an overarching policy that each one of 
the service programs needs to meet. When you go out and do 
those site visits, what is the metrics that you are using to 
evaluate the service programs?
    Mr. Rodriguez. Sir, DOD has an overarching policy, yes, 
sir. And so when we do the site assist visits, we assure that, 
again, that they are meeting the standards set forth in that 
particular policy.
    Dr. Heck. And if you find a site visit where the policy 
prescriptive guidance is not being met, what actions are taken? 
What is the procedure for corrective action?
    Mr. Rodriguez. Understanding that there is always areas for 
improvement, we work directly with the leadership at the sites. 
While we are conducting site assistance visits, we have 
leadership representation there with us.
    Upon completion of the site assist visits, we provide a 
report to the leadership. Upon completion of that report, we 
have 30 days for the leadership to respond on how they plan to 
implement those program revisions. And then we go back. In 
2015, we are going back and we are going to look at each 
additional site that we visited in 2014 and ensure that those 
policies and/or revisions are put in place.
    Dr. Heck. All right. Thank you.
    Colonel Toner, there has been some recent reporting of some 
issues at some of the WTUs, specifically down in Texas. How has 
the Warrior Transition Command responded to those concerns, and 
what role has the ombudsman position played in answering those 
concerns?
    Colonel Toner. Yes, sir. So just a summary. You know, the 
concern is largely associated with disrespect, harassment, 
belittlement of soldiers within the three WTUs in Texas. And so 
it is important to know that the information that generated the 
reporting coming out of this was our own oversight program. So 
our ombudsman report that you alluded to was provided to the 
investigative team.
    And so at the end of the day, you know, it concerns me, and 
I take very seriously, when I have a soldier or a family member 
that does not believe that they have received the world-class 
care that they deserve or they believe that they were belittled 
or harassed in any way, that is a serious concern to me, first 
and foremost. My expectation is all soldiers and family members 
are treated with dignity and respect.
    Coming out of the report and the things that we address. So 
prior to the publishing of the article and the series of 
reports out of Texas, the Sergeant Major and I went down to 
Texas and visited each of the WTUs down there because I 
personally wanted to get an assessment of whether or not we had 
issues. They were off track in terms of policy and procedures.
    And so we went down to Fort Bliss, Fort Hood, and Brooke 
Army Medical Center, and visited WTUs down there. It was not a 
white glove visit by any means or account. This was the 
Sergeant Major and I holding sensing sessions with family 
members, cadre, service members, clinicians down there to 
understand if we had a resident problem.
    It is important to note that the material that was provided 
to the reporter was from the 2009 to 2013 timeframe, and 
certainly those conditions existed as was in the ombudsman 
report. It is important to also note that those ombudsman's 
reports were resolved to the satisfaction of the soldier and 
satisfaction of the chain of command in each one of those 
instances.
    At the end of the day, what is important to me is that 
again we have a world-class program and the soldiers feel like 
they are getting the support they need. And what is also 
important to me is that we maintain our oversight. And so we 
have a robust oversight program that allows us to maintain 
visibility. And from the feedback of those soldiers and family 
members to the ombudsman program, Sergeant Major and I get 
those reports every day, as does the chain of command, and it 
is important that we can rapidly react to soldier and family 
issues.
    But more importantly, if we have some sort of policy or 
procedural issue that is indicating some sort of trend or 
systematic problem in the program, we can address that 
immediately.
    Dr. Heck. So based on the cluster that you found in Texas, 
do you feel or did you get any reports from other WTUs either 
CONUS [continental United States] or OCONUS [outside the 
continental United States]?
    Colonel Toner. So within the context of the reporting, 2009 
to 2013, I think if you look at all the WTUs, you will see kind 
of the similar types of issues and challenges, and that is 
everything from a soldier issued in their disability rating to 
administrative stuff. So I think if you look at the program in 
total, you will see a lot of same challenges out there.
    I have been to seven WTUs. I have been in command about 6 
months. I have been to seven of the WTUs. We are getting ready 
to head out on another round out there. We do organizational 
inspection programs which is a 5- to 7-day, 17-person process 
where we get out there and take a look at it.
    I am confident that the program and policies and procedures 
that are in place now have the program going in the right 
direction, but again, more importantly, that we have the 
oversight out there in case we have some sort of challenge 
within the program, we can address it immediately.
    Dr. Heck. Thank you. Mrs. Davis.
    Mrs. Davis. Thank you.
    Again, thank you all for being here.
    I wonder if you could speak to the extent to which the 
population of service members that are participating in the 
Wounded Warrior programs has changed. We know it has changed to 
some extent, and I wondered about the enrollment process, 
particularly, and who is included, who is not included, 
eligibility in terms of the seriousness of wounds.
    Mr. Rodriguez, you might have the overall view of that, but 
I wondered whether--do you know, are there major differences in 
the services in terms of enrollment, and the proportion, I 
guess, of the population's wounded warriors from the Iraq and 
Afghanistan, more particularly, or injuries that people have 
suffered in the course of their careers?
    Mr. Rodriguez. Thank you for your question, ma'am.
    And as you mentioned, I believe my colleagues from the 
services can probably speak more diligently about their 
individual processes within the services, but I can tell you 
from an OSD [Office of the Secretary of Defense] standpoint, we 
have noticed that the service members that are becoming part of 
the WTU population are in the injured and ill category now.
    Understanding that again each service member's injury and 
illness is unique, and the processes in which they arrive in 
the WTUs or warrior care programs is a unique process as well. 
We want to ensure that every service member has the opportunity 
to be part of the program and receive all of the care and/or 
resources that are available within the WTUs or the warrior 
care programs in general.
    Mrs. Davis. Uh-huh. And I don't know whether--if you wanted 
to speak briefly about that. Is there something that jumps out 
at you in terms of the way that your programs are progressing 
right now that may be different from what it was a few years 
ago?
    Colonel Toner. Yes, ma'am. And again, I appreciate the 
question. Let me give you a snapshot right now, if you can see 
the program where we are right now. So the Army has 4,139 
soldiers in the program. Of that 4,139, 1,863 are Active Duty, 
so that is about 45 percent. So we have 55 percent of Reserve 
Component, a balance of National Guard and Reserve. Of that 
total population, 81 percent of that over 4,000 have deployed. 
That doesn't mean their condition is related to a deployment. 
That means they have deployed.
    I think another interesting statistic you would probably be 
appreciative of is almost 2,000 of those soldiers, so about 47 
percent, have a--some sort of diagnosis for PTS [post-traumatic 
stress] or behavioral health, could be a primary, secondary, or 
tertiary diagnosis, and of that, 84 percent have been deployed. 
So that is kind of representative of the population right now.
    With respect to your question on intakes and enrollments, I 
think, who gets in the program, there is a difference in the 
Army program with respect to an Active Duty soldier and a 
Reserve Component soldier. So an Active Duty soldier, to get 
into the Warrior Transition Unit, you are looking at, just 
generally speaking, 6 months of complex care requirement. So 
they have a profile that prohibits them from doing their 
military occupational specialty, They require some sort of 
complex clinical care, and they are allowed to come into the 
program.
    Now, I would caveat that with senior mission commanders can 
enter somebody into the program from Active Duty. So for 
instance, if you have a soldier that has some sort of severe 
behavioral health incident or issue, that commander may 
designate that that individual gets the focused clinical care 
that is resident in the WTU and they can enter them in the 
program.
    For the Reserve Component, there is a difference. And so a 
Reserve Component soldier, if they require more than 30 days of 
care and it has been determined in the line of duty that their 
medical requirement occurred while they were on duty, then that 
soldier can apply to be entered in the WTU. The processing of 
admittance to the WTU is the same for an Active Duty or Reserve 
Component soldier. It still goes through the triad of 
leadership, the WTU commander, the medical treatment facility 
commander, and the senior mission command board to evaluate the 
entry of that soldier into the process.
    Mrs. Davis. Thank you.
    And what about the Navy then, Captain? Is there anything 
very different from him?
    Captain Breining. Yes, ma'am. We are, since Congress and 
OSD gave the services the ability to kind of shape our programs 
to what are our individual needs, I believe the last time that 
you heard testimony from us was in 2008, and Vice Admiral 
Robinson was the Surgeon General of the Navy at the time, came 
up and talked about a steady state for the Navy of about 250 
cases. Through proactive outreach, we have expanded quite 
significantly since then.
    So 250 back in 2008, 1,000 in 2010, and today we have 
helped 3,283. Our active caseload on any given day is a little 
over 1,600. That is about 600 Active Duty service members and 
reservists as well as around 1,000 transition service members 
in veteran status. So considerable program growth over the 
years as we have launched out.
    As far as the Navy's criteria for enrollment, we don't look 
at black and whites, but in generalities, about two back-to-
back windows of a year period. If the recovery is going to take 
longer than that, that would be considered a category 2 and 
eligible for lifetime enrollment.
    Less than that, we will continue to assist that service 
member with their individual needs, but in all likelihood, they 
are going to be returned to duty, and the upfront costs, as far 
as support, is going to be for the first few months, and then 
once we get them back on their feet, they will return to the 
force. But we will continue to monitor that service member if 
anything changes as far as a prognosis or condition, we will 
relook at the case and then they will be eligible potentially 
for enrollment down the road.
    Mrs. Davis. Okay. Thank you.
    I know my time is up, and perhaps for the record, I don't 
know, you want to have the Air Force and----
    Dr. Heck. Well, I think we might have another round.
    Mrs. Davis. Come back. Okay. Thank you.
    Dr. Heck. Mr. Coffman, recognized for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    I am wondering if the respective branches of service could 
tell me what percentage of your caseload in the Wounded Warrior 
program are of PTSD [post-traumatic stress disorder]?
    Colonel Toner. So, sir, if you don't mind, I will take that 
first one.
    So, again, 4,139 in the program right now in the Army, 
1,929 of those have a PTS or behavioral health-related issue. 
That could be a primary, secondary, or tertiary issue. So it 
could be, you know, part of their medical challenge. So that is 
47 percent.
    Mr. Coffman. Okay. Out of your experience with the program, 
how many of those that have behavioral health issues or PTSD 
are returned to duty?
    Colonel Toner. I will have to take that for the record and 
see if we can get back, you know, the specifics on that.
    Mr. Coffman. Okay.
    [The information referred to can be found in the Appendix 
on page 90.]
    Colonel Toner. I am sure we track that to some degree.
    Mr. Coffman. And what is the regimen of treatment for those 
personnel?
    Colonel Toner. Yes sir, it depends on how, you know, 
obviously the complexity of the case and how it is treated. But 
within the Warrior Transition Units, they have the clinicians, 
behavioral health specialists, the social workers that can 
treat that. They also have the access to the primary care 
managers, the doctors----
    Mr. Coffman. Right.
    Colonel Toner [continuing]. That can administer the program 
to them there. So that is within the WTU, which is unique to 
what we do. This is not separate from the organization. So 
those clinicians are inside the formation with those soldiers 
on a day-to-day basis.
    Mr. Coffman. Okay. Captain.
    Captain Breining. Yes, sir. About 25 percent of our 
illnesses are PTSD. I would like to take that for the record as 
far as the exact number.
    [The information referred to can be found in the Appendix 
on page 90.]
    Mr. Coffman. Sure.
    Captain Breining. But that is a, you know, ballpark figure.
    Mr. Coffman. And return to duty?
    Captain Breining. I will have to take that one for the 
record as well, sir.
    [The information referred to can be found in the Appendix 
on page 90.]
    Mr. Coffman. Okay. And regimen of treatment?
    Captain Breining. Very similar. We provide nonmedical 
support for Safe Harbor, so that is all done in the Bureau of 
Medicine and Surgery's side, but there are very good programs 
on that side that we collaborate with very closely for 
treatment.
    Mr. Coffman. General.
    General Doherty. Yes, sir. Similar process in play and 
probably about the similar numbers. I will take for the record, 
though, to get you the finite details with our occurrences.
    [The information referred to can be found in the Appendix 
on page 91.]
    General Doherty. As you understand, our program is a little 
bit different as far as we use the unit organization to be 
the--basically the mothership of care for that wounded warrior 
and family and the local facilities.
    Probably about a quarter of our wounded warriors do have 
PTS, and if it is of a significant nature or their injuries or 
their care require a significant nature, then we have patient 
squadrons. We have one on the East Coast and we have one down 
in San Antonio and one on the West Coast that we can bring them 
for a significant amount of time to make sure that they are 
getting the world-class care that they deserve.
    Mr. Coffman. Okay. And I am looking at the Army's numbers 
and I am looking at the Air Force numbers, and it seems that 
your numbers are larger than the United States Army's, if I am 
right or not. I think the Army is 4,139; is that correct?
    Colonel Toner. That is correct.
    Mr. Coffman. And your number is 1,000--well, not--1,165. Am 
I correct in that?
    General Doherty. Yes, sir. We have 1,125 on Active Duty 
right now, 300 of them are due to combat related and the other 
are due to illness and injuries, yes, sir.
    Mr. Coffman. It is surprising, I mean given the size of the 
United States Air Force relative to the size of the Army, that 
your numbers are actually larger than the United States Army's.
    Okay. Well, if I--for the record--I would like you to tell 
me, out of those PTSD, how many are returned to Active Duty.
    [The information referred to can be found in the Appendix 
on page 91.]
    Mr. Coffman. To the Marine Corps.
    Mr. Williamson. Yes, sir. The numbers of individuals who 
are reporting treatment for a psychological cause is around 59 
percent. Now, the protocols that the Bureau of Navy Medicine 
and Surgery provide for in treatment, as Captain Breining 
pointed out, is subject to the needs of that individual 
patient.
    Mr. Coffman. I am sorry. What was the--what is the total 
number for Marine Corps? For the Wounded Warrior program?
    Mr. Williamson. Yes, sir. I reported that as 59 percent, 
but what that is is the number of individuals surveyed who 
reported that they were receiving treatment for psychological 
health issues.
    Mr. Coffman. Okay. But I am sorry, what is the total number 
on the Wounded Warrior program, not just PTSD, the total 
number?
    Mr. Williamson. Right. So you must understand that the 
Marine Corps' approach to recovery care was initiated by 
General Conway, who stated that his desire was that Marines 
would recover with their parent unit so long as that unit could 
support them in recovery.
    Mr. Coffman. Okay.
    Mr. Williamson. The most needy cases would be brought, if 
you will, into residence----
    Mr. Coffman. Okay.
    Mr. Williamson [continuing]. At the Wounded Warrior 
Regiment. Presently, there are 501 Marines who are currently in 
residence----
    Mr. Coffman. Okay.
    Mr. Williamson [continuing]. With the Wounded Warrior 
Regiment. We have another 374 who are being supported at their 
parent unit----
    Mr. Coffman. Okay.
    Mr. Williamson [continuing]. By a recovery care 
coordinator.
    Mr. Coffman. Okay. So the ones in the Wounded Warrior 
Regiment, what percentage of those would be post-traumatic 
stress? Is that at 59 percent?
    Mr. Williamson. Fifty-nine percent, yes, sir.
    Mr. Coffman. That is the 59 percent. And do you have any 
data as to how many who have processed through the Wounded 
Warrior program who are claiming PTSD who have been returned to 
Active Duty--who have been diagnosed with PTSD who have been 
returned to Active Duty?
    Mr. Williamson. Most often PTSD is a comorbid condition 
with some other disabling condition. That is why they were 
joined as an in-resident----
    Mr. Coffman. Okay.
    Mr. Williamson [continuing]. With the Marine Corps Wounded 
Warrior Regiment. So 97 percent of those who are joined to a 
Wounded Warrior Regiment----
    Mr. Coffman. Okay.
    Mr. Williamson [continuing]. Element are disability 
separated or retired, so there is approximately a 3 percent 
return to duty.
    Mr. Coffman. Approximately 3 percent, okay.
    Thank you, Mr. Chairman. I yield back.
    Dr. Heck. Thank you. Mr. Cook, you are recognized for 5 
minutes. Mr. Cook.
    Mr. Cook. Yes, sir. Thank you very much.
    I was trying to--I was obviously sleeping on the switch 
there and trying to digest some of those facts there.
    The number of post-traumatic stress disorders is very, very 
high. First of all, I had the opportunity to visit a unit down 
there at Camp Lejeune when I was down there for the 2nd Marine 
Division reunion. I was very impressed.
    And I got to be honest with you, and I am going to make a 
statement now. You know, I was on the VA [Veterans Affairs] 
Committee and I was chair of the Veterans Committee in 
California, and it bothers me, and listening to you and some of 
the things in the past, I just think you do a better job of 
taking care of the troops.
    Now, I am going to put you on the spot. If you believe that 
same thing, and anyone in the panel can ask this, and you all 
know about the problems with the VA [Department of Veterans 
Affairs] and everything else. Now, I think we have dropped the 
ball on this in terms of the overall mission of taking care of 
the troops, and it seems like you still have that major concept 
why you are doing this. And just off the top of my head, I 
think you are doing a better job.
    Do you have any feelings--I know you probably don't want to 
throw the VA under the bus, but everybody else has, and they 
have had some serious problems, and a lot of us are concerned 
that we have got to--maybe it is just too large, too 
bureaucratic; but it seems to be working for you, and I think 
you are doing a great job.
    Anyone have any comments on that statement at all? 
Controversial as it may be.
    Colonel Toner. Sir, I guess I will jump in being the 
infantryman at the table.
    Mr. Cook. Good. So am I.
    Colonel Toner. Sir, I would like to approach it this way, 
and unfortunately, I won't help you out in talking specifically 
to the VA, but what keeps me up at night is the simple truth 
that, you know, we are going to be taking care of these 
soldiers and family members for 70 to 80 years. That is the 
fact of the matter. And I have them, we have them for an 
extremely short amount of that time.
    And what concerns me is, there is a lot of attention, there 
is a lot of focus into our programs, we are looking down, we 
all are looking down. But what concerns me is what are we doing 
out in our communities? What are we doing to set the conditions 
for success, and I know I am preaching to the choir, in our 
communities.
    And it is comprehensive in nature, because what we want to 
do is we want to make the soldiers and family members feel like 
they have something that they are transitioning to. We want to 
reduce that stress. And so it is more than just adaptive 
sports, adaptive reconditioning, disabled sports, U.S.A., Ride 
of Recovery, it is more than that.
    It is great companies that are, you know, improving their 
habitat inside the workplace for disabled people, not just 
veterans, Americans. It is the folks that are revamping the 
college campuses that come and talk to us about how they are 
creating veteran campuses and how they are focusing more on how 
does a soldier who has PTS, how do they adapt to an educational 
environment.
    And so, you know, to me, that is where I would ask for 
help. That is where I would ask for focus in terms of what are 
we doing. Because there is great islands out there in the 
communities, and we know them, but what are we doing to join 
them together and make this more of a continental effort?
    Mr. Cook. Anyone else have any responses?
    Mr. Williamson. Yes, sir, if I may.
    The Marine Corps has focused our efforts on ensuring that 
the Marine understands that they are going to be in our program 
for a couple years. And as Colonel Toner indicated, we are 
going to be looking out after their welfare well into the 
future. But they are going to be veterans for the rest of their 
lives. So we want to introduce them to the capabilities and 
ensure that they understand the capabilities that the VA has 
for them and their competence and their desire to be of service 
to them.
    Mr. Cook. I don't mean to cut you off, but I am going to 
run out of time.
    Let me cut to the chase real quick. Why is it working for 
you and not the VA? Is it the concept that maybe they have 
missed the boat about taking care of troops and the military 
mission, or maybe I am trying to get a simplistic answer to 
something that is a very, very difficult question because I 
think you are absolutely right in everything you are saying.
    Captain Breining. Sir, if I may.
    This question came up in Recovery Warrior Task Force back 
in April. And I think what works well for us is we do 
collaborate, as Mr. Williamson said, very closely with the VA. 
We have the interagency coordination care committee that we 
work with the VA on. And what works well for us is for those 
enrollees in our program that have hit veteran status, we have 
that hands-on care.
    So while the VA is providing those resources, we are an 
extra line of defense for that service member if there is any 
issues and we directly inject right into the VA and solve the 
problems. I have a VA fellow recovery coordinator on my staff 
that if anything comes up, I can go right to her and she knows 
the touch point within the VA.
    So from our perspective, it is working very well, but that 
is for our population.
    Mr. Cook. Thank you.
    Yield back.
    Dr. Heck. Thank you.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. I appreciate you 
asking after the WTUs in Texas.
    And Colonel Toner, thank you for your personal attention to 
this issue, and specifically for visiting El Paso and Fort 
Bliss. And I wanted to ask you about that, and you--you touched 
on this in the answer to the chairman's question, but was there 
in fact cause for concern at the WTU at Fort Bliss?
    Colonel Toner. So, sir, during the context of the reporting 
document, so 2009 to 2013, there were challenges at Fort Bliss 
beyond a shadow of a doubt, kind of multifaceted, cadre, 
soldiers, just programmatic-type issues. What I found in my 
visit down at Fort Bliss, solid program, senior mission 
commanders fully involved down there, fully engaged, and their 
program is on track.
    As you know, demob/mob [demobilization/mobilization] site, 
so they have got a large population of Reserve Component 
soldiers down there, but a phenomenally engaged cadre and 
clinician staff down there. And I am satisfied that the program 
is on track and where it needs to be.
    Mr. O'Rourke. And I do want to keep our focus forward, but 
if I could summarize. You were able to corroborate or confirm 
that there was indeed cause for concern. Could you just touch 
on what led to that and what changed so that you feel 
comfortable going forward?
    Colonel Toner. Absolutely. So, again, so these reports that 
the reporter had FOIA'd [Freedom of Information Act], these 
were our records. These were our oversight programs, so it is 
important to acknowledge that. So these were our----
    Mr. O'Rourke. You are talking about there was a TV 
broadcast station in Texas?
    Colonel Toner. Right. The investigative team, Scott 
Friedman in Texas.
    So, again, the reports that he based his story on were our 
matters of record, our oversight mechanisms. And so the things 
that we used to change the program, to make the program better, 
the feedback that we get from the soldiers and family members, 
and more importantly, we addressed the soldiers' needs. So if a 
soldier has a concern, the expectation is, through the 
ombudsman, that that issue is going to be resolved.
    So since 2009 to now, our program has largely been built 
and adjusted based off of this type of input, soldier and 
family input. And that is----
    Mr. O'Rourke. Something--but I do want to make sure, and I 
apologize for interrupting you. I do want to make sure that you 
answer the question. What was going wrong? What was the 
specific challenge? Was it leadership? Was it processes? Was it 
procedures? Lack thereof?
    Colonel Toner. All of the above. So we are talking about a 
period of time from 2009 to 2013.
    Mr. O'Rourke. Okay.
    Colonel Toner. So you had multiple issues over that time. 
Everything from cadre members that did not have the right 
approach to the soldiers and the family members, to failure to 
implement procedures and policies that created some issues in 
the program down there.
    Mr. O'Rourke. And you feel those are resolved now----
    Colonel Toner. Absolutely.
    Mr. O'Rourke [continuing]. Going forward. And I will just 
tell you anecdotally, I took office in January of 2013, and 
family members of service members who were at the Bliss WTU 
brought these issues to our attention. And we saw press reports 
prior to this recent broadcast report from this past year. And 
essentially, you got the family member saying that the service 
member was being humiliated or being treated with disrespect, 
and then you got commanders saying, well, these are folks who 
in some cases just don't want to get in line, and we need to 
maintain discipline and order going forward. Some of them are 
going to be deployed and be reintegrated.
    We also found--we dug a little deeper, to touch on Mr. 
Cook's point, that there were some problems at the VA because, 
you know, a certain percentage of these service members were 
going through the IDES [Integrated Disability Evaluation 
System] process as they roll out into civilian life, and that 
we had a hangup at this DRAS [Defense Retiree & Annuitant Pay 
System] processing facility in Washington State where we were 
not able to get the ratings, and these soldiers were literally 
languishing at the WTU there. And I think as that delay has 
come down and we are able to process these soldiers through the 
IDES process, I think that has improved things as well. I don't 
know if you want to comment on the VBA [Veterans Benefits 
Administration] aspect of it?
    Colonel Toner. Well, so--you know, it all comes down to 
communication. That is the number one complaint that we get out 
there when we talk to soldiers and family members is 
communicating through the process. And so there is known 
entities that we can talk to them about and say, okay, this is 
known to us. But for a soldier and family member in transition, 
it is an extremely stressful time in their life. I mean, they 
are going through a medical process where it is stressful, and 
they are going through transition where it is stressful.
    So, you know, our ability to give them some sort of 
prediction on when they are going to be separated and 
transitioned in civilian side of the house is extremely 
important to the soldier and family member so they can make 
that part of their comprehensive transition plan.
    So, you know, from when I was a battalion commander in 2006 
to when I was a brigade commander in 2009, you know, we have 
broken the window down to where we can give them a pretty good 
idea. Ninety days, okay, we expect to get your ratings back and 
we will know this and we will be able to transition you at this 
point in time. It has been a pretty large accomplishment since 
2006, when we couldn't predict that. But at the end of the day, 
it would be nice to be able to tell the soldier, absolutely, we 
know you are going to transition on 6 June, it is going the 
happen on that day, your ratings are going to come back, we can 
get some predictability into their lives, et cetera.
    I think you reduce that and you mitigate that by having 
that conversation with those soldiers and family members out 
there so they understand what part of the process is. There is 
also an appeal process where a soldier can choose to do that. 
So that is part of--part of what we are doing out there. And I 
don't want to leave you, sir, with the idea that, you know, at 
Fort Bliss it was just a matter of we are replacing leaders and 
everything else. No, this is--you know, Fort Bliss sort of 
represents, in a good way, our ability to react to soldier 
input, family input, and cadre input and adjust the program.
    And so it is much more than changing leaders at Fort Bliss. 
It is readjusting our training program in San Antonio. It is 
readjusting the way that we select cadre members. It is our 
approach to the training that those folks get that allow them 
to adjust the program down there. So it is much more than just 
that.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    Dr. Heck. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And for those of us on this committee who have been here 20 
years, we have really seen, and I want to commend the 
commitment made by not only you, but those before you to see 
this Wounded Warrior program become what it is today. And 
nothing is perfect in government and outside of government. You 
have done a magnificent job to get to this point.
    I have the privilege to represent the district in North 
Carolina, the home of Camp Lejeune Marine Base and Cherry Point 
Marine Air Station, and I have had a chance to visit the 
Wounded Warrior program many times down at Camp Lejeune. And I 
saw it from the old barracks to a new facility. It has been a 
tremendous commitment made by our government to those who have 
given so much physically and mentally.
    What I would like to ask each one of you, for those--and I 
know you said the numbers are down, which is a good thing, I 
would hope--that are still in the program from their mental and 
physical wounds from the Afghan and Iraq war, how many of those 
that are still in the program that are being medicated, meaning 
that they are still on prescription drugs for their treatment 
of PTSD or TBI [traumatic brain injury] or it could be another 
issue.
    If you could give me some idea of the percentage from the 
Army, Navy, Air Force, and Marine Corps, of those that are 
still in the Wounded Warrior program and the percentage of 
those that are being medicated.
    And if you don't have it now, if we could get it for the 
record. That is really one of my biggest concerns, because I do 
still have a lot of communications, as certainly you have more 
than I do, but there are still those that are in much need, 
particularly the PTSD, of trying to be able to grip with their 
problems. And so if you could give me--maybe you know it now. 
If you could share it with me, I would appreciate it.
    Colonel Toner. Sir, I will have to take that for the record 
and get you the number there.
    [The information referred to can be found in the Appendix 
on page 91.]
    Colonel Toner. From a polypharmacy or pharmaceutical 
standpoint, you know, again, the Army program has come a long 
way, so we have that one primary care manager that manages the 
care of that individual soldier so that we reduce the aspect of 
polypharmacy. And the first approach being, you know, how can 
we treat, how can we do this pain manager or how can we do the 
management of your condition through things other than some 
sort of medicated approach.
    Mr. Jones. Does anyone have any--the reason I am asking 
this because a few of us for a number of years have been trying 
to get the opportunity of a soldier, Marine, or airman, Navy, 
whichever, the ability to--with the doctor's prescription, to 
be treated by hyperbaric oxygen treatment. And it has been a 
frustration for many of us in the Congress in both House and 
Senate that we continue to get roadblocks not from you--this is 
above the Wounded Warrior program--but of getting this 
treatment approved to the point that if prescribed by the 
doctor on base and that the patient believes it could be 
helpful.
    So that is the reason I would like to see these numbers 
that I have asked for, that if you could provide each service 
how many are still in the Wounded Warrior program that are from 
the Afghanistan--excuse me--or Iraq war and they are still in 
the program and how many are being medicated. I really would 
appreciate it very much.
    General Doherty. Yes, sir. That is a great question. I will 
take it for the record and get you the details on that.
    [The information referred to can be found in the Appendix 
on page 91.]
    General Doherty. But just our experience, I am retiring 
Captain Mitchell Kieffer on the 20th of February down at 
Langley Air Force Base, a phenomenal airman, and he just went 
through that treatment, and he was telling me about the superb 
results that he got from that treatment. And so I see firsthand 
that--from one case, he had very good results----
    Mr. Jones. I want to thank you for sharing that story with 
this committee because I hope, Mr. Chairman, we talked about it 
earlier, that we will hold a hearing on the treatment programs 
and the success of hyperbaric oxygen treatment. And I have got 
stories, too, but I really appreciate it. It is more important 
that you share that with this committee than me share the 
stories that I might have. So thank you very much for that 
comment.
    Dr. Heck. Okay.
    Mr. Walz.
    Mr. Walz. Well, thank you, Chairman and Ranking Member, and 
thank all of you.
    I kind of like to echo Mr. Jones' sentiments on this. As 
the current conflict ramped up and as the need to approach our 
care of our warriors changed, I want to applaud all of you for 
going forward on that, doing the things. And I think all of us 
know this is a zero sum proposition. If one warrior is left 
behind or if the care is substandard, we failed, and that is--
that is kind of the nature of it, but it doesn't dismiss the 
positive lessons, the things that are moving forward.
    I had the opportunity to visit Wounded Warrior Battalion 
West at Pendleton. And I think the American people would be 
pleased to see the facilities and the care and the outstanding 
treatment that is being delivered. And that is important.
    Colonel Toner, you hit on this point, and I know my 
colleagues here, Mr. Cook, Coffman, O'Rourke, and myself either 
previously or do now serve on the VA [Veterans' Affairs] 
committee. And I've talked for decades till I am blue in the 
face that the lack of seamless transition hampers us in so many 
ways, whether it was electronic medical record or it was a 
commitment of care on a continuum. And again, we have you here 
but no one from the VA [Department of Veterans Affairs].
    Now I do know they are embedded with you. There is things 
that happen. But I truly believe we are going to have to crack 
that. We are going to have that make that better. We are going 
to have to see it, that it is all of our responsibilities, 
because Colonel Toner, your comments were dead on. You are 
going to care for them in the big scheme of things for a 
relatively short amount of time. It is going to seem like an 
eternity to them if they are with you for 2 years and their 
family and waiting for orders and everything else that goes 
with it. But the true eternity is right, the next 70 years. And 
our inability to shape that policy holistically, I think, is 
hampering us. And I think it causes great frustration. So I 
just echo that as a statement.
    A couple of things I would ask, though. You mentioned this, 
and I am concerned about this when I was out there and looked 
at it. The folks that are providing the care, the care 
providers in the cadre, how is their morale? How are they 
doing? And I know these are people that are self-selecting many 
cases because that is exactly where they want to be, doing 
exactly what they want. But this is tough work, and it wears on 
you.
    So if I could just get--I know this is subjective, but your 
assessment of how you see those providers from each of you.
    Colonel Toner. Yes, sir. So from the Army perspective, you 
know, a lot--a majority of these folks, especially the cadre, 
are volunteers. They want to be a part of the program. At the 
end of the day, though, this is an extremely stressful 
environment. And we place the leaders and the clinicians into 
the environment, we get them training and it is highly 
emotional, as you know, sir.
    I mean, you have a soldier that is going through a medical 
process, you have a family that is in transition, it is 
extremely emotional. It is 24/7 for the providers and the 
cadre. It is tough work, but it is very rewarding.
    So it is a challenge. We have instituted in the Army that a 
tour of duty for a cadre member is 24 months because it is so 
stressful. It requires such a commitment that we want to make 
sure that there is not a, you know, some sort of fatigue 
associated with a cadre member as they are going through the 
program.
    Mr. Walz. So there is a conscious effort to address it, and 
this is--it is out there.
    Colonel Toner. Yeah. And so one other thing, too, if I may, 
Congressman, is the resiliency program that we put them 
through. So we have added a week of training to the cadre 
course that puts them through the Army's--a portion of the 
Army's resiliency training, shows them how to cope and also how 
to assess individuals that may be--that may be struggling.
    We also opened up the master resiliency training course, 
which is a much longer course, and allows them to become 
trainers of that course within the formations.
    Mr. Walz. Wonderful.
    Captain.
    Captain Breining. Yes, sir. I talk to each of our staff 
members as they come through to take their assignments, and 
resiliency is one of the top things I talk about because it is 
such a challenging assignment. It is very rewarding to be able 
to give back to these wounded warriors that deserve our support 
so well. But it takes a lot out of you, and they are putting in 
a lot of extra hours to provide that quality care that they 
believe that the wounded warriors deserve. And resiliency is 
definitely something we've got to look at.
    My concern is we have military that come in for 3-year 
orders, but then I also have government civilians that do this 
for 7, 8 years.
    Mr. Walz. Yeah.
    Captain Breining. And they are the ones who really impress 
me, because they keep at it. I continually focus them on living 
well for themselves and just kind of assessing where they are 
at and talking to the other care providers to make sure that 
they are not internalizing these stresses.
    General Doherty. Sir, we found that the training is 
incredibly invaluable to all of our recovery care teams. And we 
just got done with a one-week session down in San Antonio with 
nonmedical care managers, along with the recovery care 
coordinators, and the community airmen family readiness 
community leaders that help it along assisting families.
    But we give them those resiliency skills during this week. 
They are a part of our master resiliency trainer program as 
well. And then just the socialization and the commonality of 
bringing our 43 regions across the globe together to share 
challenges, to share insights, best practices, and whatnot, we 
find that to be very valuable. And we are putting that into our 
battle rhythm.
    So we are doing that once a year. And then the policy 
folks, the folks that have levers to--we midstream it at the 
summertime, and then we start it all over again for next 
January. We will be doing the same thing. Yes, sir.
    Mr. Walz. Mr. Williamson, I am sorry, my time cut you off. 
I may have to follow up with you and just ask you offline. 
Thank you.
    Dr. Heck. Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair.
    It is always interesting to be a freshman. You get to hear 
all the good questions, and then you are last.
    You know, some of the statements I will make, and I will 
leave it kind of open for how you want to answer this, but I 
always look at outreach. I just Googled and went onto Web sites 
and saw how you enroll into the program and what is needed and 
all of that.
    How much outreach are we doing? Obviously, if someone is 
wounded, then we probably enroll them right away. But if 
someone comes home and now is starting to go through some of 
the issues of PTSD or some other issues by being in the combat 
zone, what kind of outreach are we doing so that those 
individuals know that there is a place for them, there is a 
place where they can get treatment, there is a place where they 
can be treated?
    And secondly, what are we doing about funding? We always--
we are always talking about funding in one form or fashion. I 
am sure we are going to be talking about that this year quite a 
bit. But there is something the American people never argue 
about, and that is, taking care of our wounded warriors. There 
is never a partisanship there, there is never a question about 
that. It is always they should get the care, and they should 
get everything that they need and they deserve.
    So I will just leave those both open to Colonel or Captain 
or General, if you want to answer any one of those?
    Colonel Toner. Sir, I guess I will start. So in terms of 
outreach, you know, so it is a large Army issue, first of all, 
and so the Army has addressed this in many ways. We have 
embedded behavioral health now down in the combat brigades. We 
have medical providers in the combat formations out there. And 
so within the formations themselves, they have the ability to 
assess an individual and get them the help they need.
    A soldier who is medically evacuated from theater, from 
some sort of deployment, so the policy that is in place right 
now is that soldier, when they are medically evacuated--so let 
me give you an example: Fort Campbell, 101st Airborne soldier 
medically evacuated from Africa goes back to Fort Campbell. 
They are attached to the Warrior Transition Unit for an 
evaluation period. And so the primary care managers, those 
clinicians within that formation and that leadership within 
that formation will assess the soldier and determine whether or 
not that soldier can proceed back to their unit and receive the 
care they need, or they remain in the Warrior Transition Unit.
    So the other thing that units do is they do medical review 
boards where the clinicians of the unit will sit down, they 
will go through the formation, they will take a look at their 
folks that are in the care process, and they will make a 
determination to whether that individual needs to go in the 
Warrior Transition Unit.
    From a funding perspective, we are a fully funded program, 
and we have been the whole time. I am fully funded for this 
year, and I don't see any lack in my ability to execute my 
mission and my mandate.
    Captain Breining. So there is a few ways. One is our 
proactive marketing and outreach, getting different advertising 
spots that are aired at base theaters, to putting local news 
stories in the base paper, to actually going out and meeting 
with leadership of unit commands at the regions to get the word 
out about the program.
    I have done a tour around the U.S. to meet with Reserve 
Component commands, and all the NAS [naval air station] COs 
[commanding officers] to talk to them, especially on the 
Reserve side. It is always a challenge to let them know that 
our services are available to them as well.
    And then finally is the personal casualty report [PCR]. So 
anyone who is seriously wounded, ill, or injured, the unit 
commander is required to do a PCR on that individual. And we 
track all those as they come in. And that is the primary means 
for us to be notified that someone needs our services.
    But it is a continuing challenge to get the word out and 
make people understand that we are more than just combat 
wounded, that 80 percent of our population is for seriously ill 
and injured as well.
    As far as resourcing, I brought the stats up at the 
beginning, 19 percent growth in 2013, 34 percent this past 
year. Basically our enrollments, because of our successful 
marketing and outreach, is outpacing our resources. And in a 
resource-constrained environment that is a challenge, but we 
are addressing that through the planning, programming, 
budgeting, and execution system and are hopeful that we will be 
able to catch up with the current need.
    General Doherty. Yes, sir, as far as the outreach, it 
starts from the top and it comes with the profession of arms 
and the ethos. And so General Welsh, in his statements last 
week, it is a top priority. It is a sacred trust. And so from 
the top down through the chain of command, the way our program 
is organized with parent units taking care of their folks to 
the most extent possible, we stress that.
    And so I personally at every new wing commander, crew 
commander that is coming on line, I personally have sessions 
with them in forums to talk through the program, talk through 
the strengths, the possible challenges and insights on keeping 
their eye and keeping the focus. And then we give them lists on 
who their wounded warriors are, who their recovery care 
coordinators are, phone numbers, and get them personally 
connected with all the people that are in charge of their 
programs. So once they hit the ground, they are part of the 
team immediately.
    As far as funding goes, it is a nonstarter. I mean, that is 
a top priority and has not been an issue, even though we have 
growth as well as the other services.
    Mr. Knight. Thank you, Mr. Chair.
    Dr. Heck. Mrs. Davis, did you want to follow up with your 
question?
    Mrs. Davis. Sure. I don't know that we need to go back and 
go through the piece from the Air Force and the Marines, but if 
you wouldn't mind doing that for the record, just in terms of 
making sure that people--sort of the distinctions in terms of 
getting people into the program. That would be helpful.
    [The information referred to can be found in the Appendix 
on page 89.]
    Mrs. Davis. What I did want to ask you about is what you 
see are barriers for people being served today. Are there 
changes to the policies that would make a difference with the 
population as we see it going forward, or do you think that we 
pretty much need to keep things as they are?
    One of the things that--we have come a long way. I mean, I 
just want to really applaud the effort for resiliency and 
taking care of the care providers, because that is very, very 
important.
    I had the woman come to see me recently from the Heroes and 
Healthy Families program. I don't know if anyone is familiar 
with that. But what they have tried to do is, from a really 
experiential point of view, share the experiences that folks 
have had getting help and assistance.
    At the beginning of all this, you know, a number of years 
ago, the stories of people who just were not seeking care were 
really right there in front of us, and it took almost our 
senior leaders to show up at mental health clinics, frankly, 
and to sit there and to suggest to the troops that they needed 
help as well, in order to get people to get the care that they 
needed.
    And so I am just wondering, is there anything different now 
that we need to do to address those policies to make it more 
comfortable and less career-inhibiting to be certain that 
people get the help that they need in a timely fashion? You are 
providing it, but sometimes people are not necessarily getting 
in line.
    Mr. Rodriguez. Well, ma'am, thank you for the question. And 
I definitely can provide a little bit of information of that 
from the OSD level.
    One of the things we are consistently doing is reviewing 
our policies to make sure that they meet the requirements that 
our service members are going to need in the future. We also 
want to ensure that they are inclusive as possible to be able 
to provide the services that any service member may need as he 
or she feels that they may be--they may benefit, rather, from 
the services that are provided within the WTUs from all of the 
services.
    One of the things that we consistently do is do, again, a 
quality assurance of our programs, ensuring that the programs 
meet the needs of our service members and that the services, 
again, based off of their unique way that they conduct their 
execution of their programs for their particular service 
members, I think they may be able to elaborate a little bit 
more on that.
    However, we are consistently reviewing our policies from 
OSD standpoint to make sure that they do meet the requirements 
in the new population that we are working with.
    Mrs. Davis. Okay. Does anybody see the problem that we have 
with individuals who believe, soldiers, sailors, who believe 
that seeking help would hurt their career in the future? Is 
that still an issue out there?
    Colonel Toner. Yeah. So, ma'am, again, thanks for the 
question.
    So unfortunately or fortunately, however you want to 
characterize it, what almost 14 years of conflict has given us 
is a large population of soldiers and leaders who understand 
PTS and behavioral health issues. And it has significantly 
reduced the stigma associated with it, to the point that 
leaders and those that they are leading out there understand it 
and understand the treatment and the help they can get to it 
and understand the fact that we have folks walking in our 
formations now that are dealing with it and doing just fine in 
terms of their ability to perform.
    From an experienced perspective, you know, my own 
experience, you know, prior to going to combat I probably was--
you know, just didn't understand it. I thought maybe I 
understood it; didn't understand it. Going to combat, first 
tour, 16 months, I get it. I understand it. And so you have 
this generation out there right now that understands it.
    The fact that we have embedded behavioral health inside our 
formations--I was one of the first brigade commanders to get 
that, and I will tell you that is a phenomenal achievement, a 
leap, just an incredible leap, where I have an individual 
inside my formation that I call Bob or Sue or whatever and that 
I can go to and talk and I can address my problem. More 
importantly, I have a squad leader that pushes me in that 
direction because they understand I am suffering, they 
understand I am going through that challenge.
    So the big challenge is just to not lose that, is to 
maintain that kind of understanding, and to make sure that the 
new generation that is coming in that has not had that 
experience borne out of war understands that, and that we don't 
lose the funding and the policies and the procedures that we 
have in place. At the end of the day, we are hard on ourselves. 
We are going to constantly address the policy and the program 
and make it right.
    Mrs. Davis. Yeah. Thank you.
    Thank you, Mr. Chairman.
    Dr. Heck. Well, I want to thank you all for--that was the 
call for votes, so I want to thank you all for taking the time 
to be here today.
    And, more importantly, thank you for everything that you 
are doing to take care of our soldiers, sailors, airmen, 
Marines, and Coast Guardsmen that need the care that your folks 
are providing and that they deserve.
    So there being no further business before the subcommittee, 
we stand adjourned.
    [Whereupon, at 4:38 p.m., the subcommittee was adjourned.]


      
=======================================================================

                            A P P E N D I X

                            February 3, 2015

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 3, 2015

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 3, 2015

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MRS. DAVIS

    General Doherty. In 2005, we began support of our combat wounded 
Airmen through our Air Force Wounded Warrior Program (originally called 
Palace HART). In 2009, we added the Recovery Care Program to provide 
non-medical support to our seriously/very seriously ill and injured as 
well; both deployment and non-deployment related. In 2012, we combined 
the two programs into one, the Air Force Wounded, Ill and Injured (WII) 
Program, to consolidate our resources and provide standardized care.
    Airmen that fall in one of the following categories are eligible 
for the WII Program: identified as seriously or very seriously ill or 
injured or combat wounded; referred to Integrated Disability Evaluation 
System (IDES) for Post Traumatic Stress Disorder (PTSD) or Traumatic 
Brain Injury (TBI); Air Reserve Component Airmen who are redeployed 
because of an injury or illness or who are in an active duty status and 
are anticipated to remain on Title 10 medical orders (serious/severe 
conditions) for at least six months; and Airmen assigned to a Patient 
Squadron and have a 9P AFSC Wounded Warrior Identifier.
    Since 2005, the program has seen numerous key changes and 
initiatives for our Airmen and families. Our Recovery Care Coordinator 
(RCC) program has grown from 15 to 44 RCCs and has morphed into a 
regional concept to ensure all bases, including Guard and Reserve are 
covered by an RCC. To better serve our Airmen and their families, we 
developed automated case management through the Recovery Care Program-
Support Solution (RCP-SS) and added technology tools (Skype, Texting, 
Twitter, Facetime, Facebook) to allow contact flexibility. Our Adaptive 
Sports program provides physical, social and psychological 
rehabilitative opportunities. In cooperation with OSD Office of Warrior 
Care Policy, our Airmen have Education and Employment support and 
opportunities to participate in Operation Warfighter. We also 
implemented programs to help alleviate financial burdens. Airmen 
wounded, ill or injured in support of combat operations are eligible 
for the Pay and Allowance Continuation program. And, to help offset a 
caregiver's loss of income, we have the Special Compensation for 
Assistance with Activities of Daily Living program. This past year, we 
developed special programs to support our Caregivers, focusing on peer-
to-peer support, counseling, and resiliency. Annually we conduct 
program reviews to assess the continuum of care, validate support is 
on-the-mark, capture lessons learned, and continuously make 
improvements.   [See page 23.]
    Mr. Williamson. 1. The U.S. Marine Corps Wounded Warrior Regiment 
(WWR) was established in 2007 to provide and facilitate non-medical 
care to combat and non-combat wounded, ill, and injured Marines, 
Sailors in direct support of Marines, and their families. In 2009, 
Department of Defense Instruction (DODI) 1300.24 established an 
enduring requirement for service level recovery care coordination for 
all severely ill and injured service members, regardless of combat 
status. The WWR command is headquartered at Quantico, VA and commands 
two subordinate battalions and 11 detachments that provide recovery 
care coordination for the Marine Total Force.
    2. The Marine Corps model is for Marines to recover with their 
parent units as long as the unit can support their recovery and return 
to full duty status or transition to civilian status. Marines requiring 
complex care coordination are joined to a WWR element either during 
hospitalization or through a referral made by a medical provider via 
the Marine's unit commander. A WWR board, composed of medical and non-
medical subject matter experts evaluates each commander-endorsed 
referral and makes a determination based on several criteria, 
including: a. The Marine has injuries that will require more than 90 
days of medical treatment or rehabilitation per Marine Corps Order 
6320.2, Administration and Processing of Injured/Ill/Hospitalized 
Marines. b. The Marine has three or more appointments of complex nature 
per week. c. The parent command cannot support transportation 
requirements to the medical treatment facility. d. The Marine cannot 
serve a function in the parent command due to their injuries or 
illnesses.
    As of February 2015, 501 Marines were joined to the WWR, with an 
additional 46 Marine in-patients and their families receiving service 
and support from a Regiment on-site staff.
    3. Marines not rising to the level support required to be joined to 
a WWR element will remain with their parent units and may, based on a 
comprehensive needs assessment, receive external support from WWR. 
Support comes through Recovery Care Coordinators (RCC), battalion level 
contact center outreach, pay and entitlements audits and assistance, 
Disability Evaluation System (DES) advocacy, and transition support. As 
of February 2015, 374 Marines remained with their parent units while 
receiving, at a minimum, RCC support from the WWR.
    4. The combined joined and external WWR population has shifted in 
recent years, with combat wounded Marines dropping by more than half 
since December 2012. Of the recovering service members (RSMs) currently 
supported by RCCs, 68% became ill or injured outside a combat zone; 13% 
were ill or injured in a combat zone; and 19% were combat wounded as 
the result of direct armed conflict with the enemy. The number of 
combat wounded is expected to continue to decline through FY17; the 
remaining population needing services will be severely ill and injured.
    5. Current referral and acceptance policies for assignment to the 
WWR for recovery allow the commander to evaluate each case 
individually. Using the criteria previously set forth, the WWR is able 
to join each Marine whose medical/non-medical needs require complex 
care, regardless of the type or timing of the illness or injury, 
including those Marines receiving treatment for post-traumatic stress 
disorder (PTSD) and traumatic brain injury (TBI). As the warrior care 
community gains a better understanding of PTSD and TBI, the WWR 
continually trains staff and cadre to recognize and support recovery 
from these conditions. Should the current operating policy be found 
inadequate in the future, the WWR will take necessary measures to 
ensure Marines in need and their families have access to the best 
possible care and resources.
    6. In addition to the joined and external RCC supported Marines, 
there are other specific populations of WII Marines receiving support 
through the Regiment. The Regiment's Wounded Warrior Operations Center 
(WWOC) reviews every Personnel Casualty Report (PCR) and Serious 
Incident Report (SIR) generated by field level commanders, across the 
Marine Corps, to identify Marines who may require WWR assistance. If 
the WWOC deems appropriate, a deeper dive into the particulars of a 
case may be directed and may result in a direct engagement with the 
Marine's unit commander or the individual Marine who was the subject of 
those reports. Through our Battalion level contact cells and the 
Regiment's Sgt. Merlin German Resource and Outreach Call Center, more 
than 30,446 reserve Marines and Marine veterans who were disability 
separated or retired, and 3,338 WII Marines currently on active duty 
receive periodic contact to ensure their recovery needs are being 
properly addressed or they are receiving information on benefits and 
services available to them and their families. The outreach facilities 
generate more than 120,000 outreach and receive 14,000 incoming calls. 
Additionally, 741 reserve and medically retired Marines currently 
receive recovery care coordinator-like services through one of the 
Regiment's 31 field level District Injured Support Coordinators who are 
geographically dispersed across the nation and most often embedded 
within a VA Integrated Service Network (VISN) facility.
    7. POC is Mr. Paul Williamson, Command Advisor, Wounded Warrior 
Regiment, at 703-432-1857.   [See page 23.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. COFFMAN
    Colonel Toner. Of the 29,463 Soldiers who returned to the force, 
2,056 Soldiers from all components (7%) were diagnosed with Post 
Traumatic Stress Disorder. Further 1,112 Soldiers of 29,463 (4%) had 
Post Traumatic Stress Disorder as a ``primary condition''. By 
comparison, 4,633 Soldiers (16%) had a Behavioral Health diagnosis 
(non-Post Traumatic Stress Disorder), and 2,833 Soldiers (10%) had a 
Behavioral Health diagnosis as a primary condition.   [See page 11.]
    Captain Breining. As of 3 February 2015, 495 enrollees in Navy 
Wounded Warrior-Safe Harbor have a primary or secondary diagnosis of 
Posttraumatic Stress Disorder (PTSD) out of a total population size of 
3,310. This equates to 15 percent of all enrollment conditions and 33 
percent of illnesses.   [See page 12.]
    Captain Breining. Of the 495 Navy Wounded Warrior-Safe Harbor (NWW-
SH) enrollees that have a primary or secondary diagnosis of Post-
Traumatic Stress Disorder (PTSD), 21 are presently in a return to duty 
status (4 percent).
    It should be noted, however, that this return-to-duty percentage is 
not representative of the entire population of Navy personnel who have 
been diagnosed with PTSD. Many of these personnel are enrolled in NWW-
SH for serious disorders in addition to PTSD, and it is these 
disorders, rather than PTSD, that are preventing them from returning to 
duty. In addition, those personnel enrolled in NWW-SH typically suffer 
from more severe conditions than other patients. The vast majority of 
PTSD patients in the Navy are effectively treated through routine 
outpatient care and are never referred to NWW-SH. In the majority of 
cases, a diagnosis of PTSD does not necessitate separation from the 
service.   [See page 12.]
    General Doherty. Since the Air Force Wounded, Ill and Injured (WII) 
program inception in 2005, 4,246 members have been enrolled in the 
program (RegAF, Guard, Reserve). 45% (1,916) of the WII have PTSD, and 
13% (258) of those with PTSD are still on Active Duty (RegAF, Guard, 
and Reserve).
    Since 2005, 2.8% (54) of those with PTSD have been returned to 
duty.   [See page 12.]
    General Doherty. There are 1,049 Airmen on Active Duty (RegAF, 
Guard, and Reserve) in the Wounded, Ill or Injured program. 258 of 
those Airmen have PTSD; 124 combat related, and 134 non-combat related.
    During verbal testimony the Army reported having 4,196 Soldiers in 
the Warrior Transition Unit (WTU). That number reflects those Soldiers 
currently assigned to the WTUs as of the date of the testimony. The 
Army reported that since program inception in 2007, they have provided 
recovery and transition support to 65,700 Soldiers. The current Army 
number of 4,196 Soldiers should be compared to the 1,049 Airmen still 
on active duty currently in our program, not the 4,246 total Airmen.   
[See page 13.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. JONES
    Colonel Toner. Of the 6,248 Soldiers previously deployed Army 
Active Duty Service Members assigned to the Wounded Warrior Program 
between October 1, 2013 to September 30, 2014, and diagnosed between 
October 1, 2011 to September 30, 2014, with at least one post-traumatic 
stress and/or traumatic brain injury condition, 6,147 (98.38%) were 
prescribed at least one medication, and 6,045 (96.75%) were prescribed 
at least one chronic maintenance medication for any medical condition 
at any time from October 1, 2013 to September 30, 2014.   [See page 
18.]
    General Doherty. There are 1,049 Airmen on Active Duty (RegAF, 
Guard, and Reserve) in the Wounded, Ill or Injured program. 258 of 
those Airmen have PTSD; 124 combat related, and 134 non-combat related.
    During verbal testimony the Army reported having 4,196 Soldiers in 
the Warrior Transition Unit (WTU). That number reflects those Soldiers 
currently assigned to the WTUs as of the date of the testimony. The 
Army reported that since program inception in 2007, they have provided 
recovery and transition support to 65,700 Soldiers. The current Army 
number of 4,196 Soldiers should be compared to the 1,049 Airmen still 
on active duty currently in our program, not the 4,246 total Airmen.
    There are 1,049 Airmen on Active Duty (RegAF, Guard, and Reserve) 
in the Wounded, Ill or Injured program. 258 of those Airmen have PTSD; 
124 combat related, and 134 non-combat related.
    During verbal testimony the Army reported having 4,196 Soldiers in 
the Warrior Transition Unit (WTU). That number reflects those Soldiers 
currently assigned to the WTUs as of the date of the testimony. The 
Army reported that since program inception in 2007, they have provided 
recovery and transition support to 65,700 Soldiers. The current Army 
number of 4,196 Soldiers should be compared to the 1,049 Airmen still 
on active duty currently in our program, not the 4,246 total Airmen.   
[See page 19.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 3, 2015

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. How many service members that are in the WTUs still 
being medicated, in percentages?
    Captain Breining. There are currently 125 Sailors assigned to Navy 
Wounded Warrior-Safe Harbor (NWW-SH) who have served in Iraq or 
Afghanistan and were diagnosed with Posttraumatic Stress Disorder 
(PTSD) or Traumatic Brain Injury (TBI).
    Within all of Navy Medicine, 75% of individuals diagnosed with PTSD 
are prescribed medications for the treatment of this diagnosed 
condition. Of these, 93% receive medications in accordance with DOD/VA 
Clinical Practice Guidelines (CPGs). A review of personnel assigned to 
NWW-SH indicates that their treatment is consistent with these overall 
numbers.
    Navy Medicine closely tracks the extent to which our PTSD patients 
are prescribed medication, and the extent to which these prescription 
patterns are consistent with CPGs. Specifically, Navy Medicine conducts 
quarterly metrics reviews using data from the Military Health System 
Management Analysis and Reporting Tool (M2), as well as detailed 
reviews of a representative sample of medical records from multiple 
facilities. Our findings related to medication have been consistent 
each quarter. Among those seen in our Medical Treatment Facilities 
(MTFs), between 93 and 94% of those prescribed medication are 
prescribed those medications specifically recommended by CPGs. In the 
5-7% of cases in which alternative medications are prescribed, these 
are typically used only in the short term for sleep, or to provide 
rapid alleviation of symptoms for a patient in acute distress.
    Mr. Jones. How many service members that are in the WTUs still 
being medicated, in percentages?
    General Doherty. The Air Force does not have Warrior Transition 
Units. Most Air Force Wounded Warriors, including those with PTSD or 
TBI, remain at their duty station for treatment and care at their local 
Air Force Military Treatment Facility (MTF) or a civilian hospital in 
the community. If the care Airmen require is unavailable at their duty 
station or if they are stationed overseas and require treatment for 
more than six months, they are assigned to a Patient Squadron in an Air 
Force MTF that provides the specialties required for their treatment.
    There are approximately 2,100 Active Duty, and active Reserve and 
Guard members with a PTSD diagnosis. Of those, 124 are Wounded Warriors 
and 105 (84.7%) have had a PTSD-associated medication prescribed since 
1-Jan-14. Only 11 of the Wounded Warrior Airmen with PTSD are in a 
Patient Squadron. These Wounded Warriors are treated under the 
supervision of providers at the local MTF, which monitors medications 
and other therapies. All Airmen with PTSD have access to medicine and 
psychotherapies as outlined in nationally recognized DOD/VA Clinical 
Practice Guidelines for the treatment of PTSD.
    Mr. Jones. How many service members that are in the WTUs still 
being medicated, in percentages?
    Mr. Rodriguez. [No answer was available at the time of printing.]
    Mr. Jones. How many service members that are in the WTUs still 
being medicated? He would like this answer in percentages
    Colonel Toner. Of the 11,829 Army Active Duty Service Members 
assigned to the Wounded Warrior Program between October 1, 2013 to 
September 30, 2014, 11,519 (97.38%) were prescribed at least one 
medication, and 11,171 (94.44%) were prescribed at least one chronic 
maintenance medication for any medical condition at any time from 
October 1, 2013 to September 30, 2014
    Mr. Jones. How many service members that are in the WTUs still 
being medicated, in percentages?
    Mr. Williamson. As of February 2015, there were 155 Marines 
assigned to the USMC Wounded Warrior Regiment (WWR) who had served in 
Iraq or Afghanistan and were diagnosed with PTSD or TBI.
    Within all of Navy Medicine, 75% of individuals diagnosed with PTSD 
are prescribed medications for the treatment of this diagnosed 
condition. Of these, approximately 93% receive medications in 
accordance with DOD/VA Clinical Practice Guidelines (CPGs). In the 
approximately 7% of remaining cases, alternative medications are 
prescribed, primarily for short-term sleep issues or rapid alleviation 
of acute symptoms. A review of personnel assigned to WWR indicates that 
their treatment is consistent with these overall numbers.
    Navy Medicine closely tracks the extent to which our PTSD patients 
are prescribed medication, and the extent to which these prescription 
patterns are consistent with CPGs. Specifically, Navy Medicine conducts 
quarterly metrics reviews using data from the Military Health System 
Management Analysis and Reporting Tool (M2), as well as detailed 
reviews of a representative sample of medical records from multiple 
facilities. Our findings related to medication have been consistent 
each quarter.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
